   February 12, 2002




Defense Infrastructure

General and Flag Officer Quarters
at Fort Shafter, Hawaii; and
Fort McPherson, Georgia
(D-2002-048)




              Department of Defense
          Office of the Inspector General
Quality                Integrity      Accountability
 Additional Copies

 To obtain additional copies of this audit report, visit the Inspector General, DoD,
 Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
 Distribution Unit of the Audit Followup and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

 Suggestions for Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
 (703) 604-8932. Ideas and requests can also be mailed to:

               OAIG-AUD (ATTN: AFTS Audit Suggestions)
                 Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                        Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
 by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
 The identity of each writer and caller is fully protected.




Acronym

GFOQ                 General and Flag Officer Quarters
                       Office of the Inspector General, DoD
Report No. D-2002-048                                                 February 12, 2002
  (Project No. D1999CG-0085.003)

             General and Flag Officer Quarters at Fort Shafter,
                  Hawaii; and Fort McPherson, Georgia

                                   Executive Summary

Introduction. This report is one in a series of reports about general and flag officer
quarters (GFOQ) maintenance and repair costs. The Military Construction
Appropriations Act 2000, section 128, requires that general and flag officer quarters
maintenance and repair costs not exceed $25,000 annually without prior congressional
notification. We reviewed the maintenance and repair costs for three GFOQs at Fort
Shafter and nine at Fort McPherson.

Objectives. Our overall audit objective was to determine the adequacy of management
controls for review and authorization of GFOQ costs. Specifically, this report focuses on
annual operations and maintenance costs for the GFOQs managed by Fort Shafter,
Hawaii; and Fort McPherson, Georgia. See Appendix A for a discussion of the audit
scope and methodology.

Results. Fort Shafter management controls over GFOQ maintenance and repair costs
were adequate. The housing office at Fort Shafter complied with Army guidance and
effectively managed the three GFOQs reviewed. We identified no cost recording errors
for the three GFOQs reviewed.

Fort McPherson management controls over GFOQ maintenance and repair costs, while
adequate, were not fully implemented. Specifically, guidance concerning the timely
production of reports was not followed, and necessary reconciliations were not
performed. The Fort McPherson family housing office had cost recording errors on all
nine GFOQs reviewed and exceeded the $25,000 statutory limitation on annual
maintenance and repair costs by $1,824 and $2,056 for two GFOQs in FY 2000. The
Fort McPherson reports on GFOQ costs were inaccurate and potential Antideficiency Act
violations occurred.

Summary of Recommendations. We recommend that the Assistant Secretary of the
Army (Financial Management and Comptroller) investigate potential Antideficiency Act
violations. We recommend that the Assistant Chief of Staff of the Army for Installation
Management verify that reported costs for all the GFOQs at Fort McPherson have been
corrected for FY 2000. We also recommend that the Commanding General, U.S. Army
Forces Command verify that the production, review, and forwarding of quarterly
obligation reports are properly performed as required by guidance.

Management Comments. The Deputy Assistant Secretary of the Army (Financial
Operations) concurred with the recommendation to initiate an investigation of the
potential Antideficiency Act violation and agreed in principle with the recommendation
to verify GFOQ costs. The Army did not provide comments on the recommendation to
enforce the requirement to prepare, review, and submit quarterly obligation reports. A
discussion of the management comments is in the finding section of the report, and the
complete text is in the Management Comments section.

Audit Response. The Army comments and actions on the recommendation to
investigate the potential Antideficiency Act violations are responsive. Based on the
comments, we redirected the recommendation to verify that GFOQ costs at Fort
McPherson have been corrected for FY 2000 to the Assistant Chief of Staff of the Army
for Installation Management. We request that the Army provide additional comments on
the final report by April 12, 2002.




                                           ii
Table of Contents

Executive Summary                                                           i


Introduction
     Background                                                            1
     Objective                                                             1

Finding
     Fort McPherson General and Flag Officer Quarters Annual Maintenance
        and Repair Costs                                                   2

Appendixes
     A. Audit Process
          Scope                                                            6
          Methodology                                                      6
          Prior Coverage                                                   7
     B. General and Flag Officer Quarters Reviewed                         8
     C. Report Distribution                                                9

Management Comments
     Department of the Army                                                11
Background
    We conducted an audit of the Services’ management controls pertaining to the
    review and authorization process for maintenance and repair costs for general
    and flag officer quarters (GFOQ). In addition, we also reviewed the accuracy of
    FY 2000 maintenance and repair costs. The Office of the Assistant Chief of Staff
    of the Army for Installation Management is responsible for administering the
    Army family housing program, to include providing policy and guidance. The
    Army installation commander is responsible for managing GFOQ operations. This
    report summarizes the audit of GFOQ maintenance and repair costs at Fort
    Shafter, Hawaii; and Fort McPherson, Georgia. The U.S. Army Pacific is the
    major command for Fort Shafter, and the U.S. Army Forces Command is the
    major command for Fort McPherson. For a listing of the GFOQs reviewed, see
    Appendix B.



Objective
    The overall audit objective was to determine the adequacy of management
    controls for review and authorization of GFOQ costs. This report focuses on
    annual operations and maintenance costs for specific GFOQs managed by Fort
    Shafter and Fort McPherson. See Appendix A for a discussion of the audit scope,
    methodology, and prior audit coverage.



Fort Shafter GFOQ Annual Maintenance and Repair Costs
    The housing office at Fort Shafter complied with Army guidance and managed
    GFOQs effectively. Additionally, all maintenance and repair costs reviewed for
    FY 2000 were accurate. The housing office implemented adequate management
    controls over the review and authorization process and prepared detailed plans for
    future work, as a result of need and historical records. Finally, the housing
    officials at Fort Shafter took proactive steps to ensure that they were following
    guidance. When they had questions, they contacted the housing officials at the
    office of the Assistant Chief of Staff of the Army for Installation Management.




                                        1
           Fort McPherson General and Flag
           Officer Quarters Annual Maintenance
           and Repair Costs
           Fort McPherson family housing office exceeded the $25,000 statutory
           limitation on annual GFOQ maintenance and repair costs by $1,824 and
           $2,056 for two GFOQs in FY 2000. This condition occurred because
           management controls for GFOQ maintenance and repair costs, while
           adequate, were not fully implemented. Specifically, guidance concerning
           the timely production of reports was not followed, and necessary
           reconciliations were not performed. As a result, the installation’s reports
           on GFOQ costs were inaccurate, and potential Antideficiency Act
           violations occurred.


Public Law and Service Implementing Guidance
    Section 1341, Title 31, United States Code. “Limitations on Expending and
    Obligating Amounts,” prescribes that an officer or employee of the U.S.
    Government not make or authorize an expenditure or obligation exceeding an
    amount available in an appropriation or fund for the expenditure or obligation.

    Military Construction Appropriations Act 2000, Section 128. This section
    specifically requires that annual maintenance and repair costs not exceed $25,000
    per GFOQ without prior congressional notification.

    Army Regulation 210-50. “Housing Management,” February 1999, provides
    guidance on the policies, procedures, and responsibilities that apply to furnishing,
    operating, maintaining, repairing, and improving Army GFOQs. The Army
    Regulation also contains specific guidance on the preparation and review of
    operations and maintenance quarterly obligation reports.



Annual GFOQ Maintenance and Repair Limitation
    Beginning in FY 2000, Congress statutorily prohibited spending more than
    $25,000 annually on all maintenance and repair per GFOQ, unless specifically
    included in the annual budget justification documentation. Table 1 shows two
    GFOQs at Fort McPherson, Georgia, for which maintenance and repair costs
    exceeded statutory limitation in FY 2000.




                                         2
                     Table 1. FY 2000 Maintenance and Repair
             Costs in Excess of Statutory Limitation at Fort McPherson
                                                                  M&R Costs
                                       Statutory      Audited     in Excess of
                GFOQ                  Limitation       M&R*        Limitation
     11E (1345 Staff Row)              $25,000        $26,824         $1,824
     17W (1397 Staff Row)                25,000        27,056          2,056

     *Maintenance and Repair



Implementation of Management Controls
    Although Army guidance provides adequate management controls over GFOQ
    costs, this guidance was not fully implemented by the Fort McPherson family
    housing office. Table 1 shows that quarters 11E exceeded the $25,000 statutory
    limit. The limit was exceeded because they did not follow the guidance regarding
    the timely preparation of the first, second, or third quarter obligation reports. In
    addition, the statutory limitation was exceeded for quarters 17W due to the
    omission of costs from the quarterly obligation report that would have been
    identified if the proper reconciliations were completed.

    Quarterly Obligation Reports. Fort McPherson housing officials did not
    prepare the first, second, or third quarter obligation reports in a timely manner.
    Army guidance requires the production of obligation reports within 45 days of the
    end of the quarter and a semiannual review of the reports by the major Army
    command. However, Fort McPherson housing officials failed to produce
    quarterly obligation reports until the end of FY 2000. Thus, U.S. Army Forces
    Command officials were not provided with the second quarter obligation reports
    for any of the Fort McPherson GFOQs.

    The failure to produce quarterly obligation reports contributed to the housing
    office exceeding the $25,000 statutory limitation for quarters 11E. The
    preparation of quarterly obligation reports alone may not have prevented
    exceeding the limitation, but would have provided the housing officials with the
    current financial status.

    Cost Reconciliations. Fort McPherson family housing officials did not perform
    necessary reconciliations on GFOQ costs, and thus failed to completely identify
    and record all GFOQ costs associated with quarters 11E or 17W. The errors we
    identified indicated that GFOQ basic supervisory reviews, data edit checks, or
    reconciliations of GFOQ cost data had not been performed.




                                         3
Impacts of GFOQ Cost Recording Errors
    Fort McPherson’s accounting for GFOQ costs was unreliable. Fort McPherson
    housing officials failed to capture three transactions found on the Integrated
    Facilities Systems Management Reference Report for quarters 17W. When added
    to the total recorded on the summary quarterly obligation report, those charges
    caused quarters 17W to exceed the $25,000 statutory limit on maintenance and
    repair expenditures. Additionally, the reference report listed gutter cleaning
    charges for all GFOQs at Fort McPherson at $361 each, but the charges were
    captured on the quarterly obligation reports at only $174 each. Table 2 shows the
    total net understatement of $4,299 maintenance and repair costs for quarters 11E
    and 17W.

             Table 2. FY 2000 Understated Maintenance and Repair Costs
                                                                     Audit                Net
                                              Reported             Identified         Understated
                                             Maintenance          Maintenance         Maintenance
                  GFOQ                       & Repair *            & Repair            & Repair
     11E (1345 Staff Row)                    $26,638                 $26,824             $ 186**
     17W (1397 Staff Row)                     22,943                  27,056              4,113
      Total                                                                              $4,299
     *Maintenance and repair amounts reported to the audit team at the time of the site visit

     **This represents the $187 understatement in the gutter contract and a $1 overstatement of a
     service call



    The housing officials at Fort McPherson improperly charged maintenance and
    repair costs. The installation’s obligation reports were inaccurate, and potential
    Antideficiency Act violations occurred.



Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we redirected
    draft report Recommendation 1.b. to the Assistant Chief of Staff of the Army for
    Installation Management and renumbered Recommendation 1.b. and 2. to 2. and 3.,
    respectively.

    1. We recommend that the Assistant Secretary of the Army (Financial
    Management and Comptroller) initiate actions to investigate potential
    Antideficiency Act violations for GFOQs 11E and 17W, located at Fort
    McPherson, Georgia.


                                                4
Management Comments. The Deputy Assistant Secretary of the Army
(Financial Operations) concurred and stated that actions to investigate the
potential Antideficiency Act violations were ongoing.

2. We recommend that the Assistant Chief of Staff of the Army for
Installation Management verify that costs for all GFOQs at Fort McPherson,
Georgia are corrected for FY 2000, and congressional reporting of GFOQ
costs are updated to reflect accounting error corrections.

Management Comments. The Deputy Assistant Secretary of the Army
(Financial Operations) concurred in principle and stated that the recommendation
should be directed to Assistant Chief of Staff of the Army for Installation
Management.

Audit Response. We are redirecting the draft report recommendation to the
Assistant Chief of Staff of the Army for Installation Management. We request
that the Army provide comments on the recommendation in response to the final
report.

3. We recommend that the Commanding General, U.S. Army Forces
Command enforce the requirement that the second and fourth quarters
obligation reports be prepared, reviewed, and forwarded to the major
command.

Management Comments. The Army did not provide comments on the
recommendation. We request that the Army provide comments on the
recommendation in response to the final report.




                                     5
Appendix A. Audit Process

Scope
    Work Performed. We conducted the audit of management controls over the
    review and authorization process for GFOQ costs, as a follow-on to our
    three previous audits, Report No. D-2002-020, “General Officer Quarters at
    Kaneohe Bay, Hawaii; Camp Pendleton, California; and Albany, Georgia,”
    December 5, 2001, Report No. D-2001-027, “Navy Management Controls over
    General and Flag Officer Quarters,” December 26, 2000, and Report No. D-2000-
    071, “Maintenance and Repair of DoD General and Flag Officer Quarters,”
    January 27, 2000.

    During the audit, we interviewed housing, budgeting, and facilities maintenance
    personnel at Fort McPherson, housing officials at Fort Shafter, and representatives
    from U.S. Army Forces Command. We analyzed family housing cost
    documentation and compared them with the Integrated Facilities Systems
    Management system, which tracked GFOQ costs for FY 2000. We conducted
    reconciliations of costs recorded on the GFOQ quarterly obligation reports to the
    supporting documentation.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Infrastructure high-risk area.



Methodology
    Use of Computer-Processed Data. We relied on computer-processed data
    contained in the Integrated Facilities Systems Management system. Our review
    of system controls and the results of data tests showed an error rate that cast doubt
    on the data's validity. However, when the data were reconciled with source
    documentation such as contract delivery orders, labor reports, vendors’ invoices,
    and other documents, we believe that the opinions, conclusions, and
    recommendations in this report are valid.

    Universe and Sample. To achieve the audit objectives, we judgmentally selected
    one activity from each of two different major commands. We reviewed 9 of the
    18 GFOQs managed by Fort McPherson, and 3 of the 12 GFOQs managed by
    Fort Shafter.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available upon request.

    Audit Type, Dates, and Standards. We performed the financial-related audit
    from November 2000 through June 2001, in accordance with generally accepted
    government auditing standards.

                                          6
Prior Coverage
       During the past 5 years, the Inspector General, DoD, the Naval Inspector General,
       the Naval Audit Service, and the Air Force Audit Agency issued reports that
       discuss GFOQs.

Inspector General, DoD
       Inspector General, DoD, Audit Report No. D-2002-020, “General Officer
       Quarters at Kaneohe Bay, Hawaii; Camp Pendleton, California; and Albany,
       Georgia,” December 5, 2001.

       Inspector General, DoD, Audit Report No. D-2001-027, “Navy Management
       Controls over General and Flag Officer Quarters Costs,” December 26, 2000.

       Inspector General, DoD, Audit Report No. D-2000-071, “Maintenance and Repair
       of DoD General and Flag Officer Quarters,” January 27, 2000.

Navy
       Naval Inspector General, Report of Investigation, “Senior Official Case 990441;
       Alleged Misuse of Operating Funds for Maintenance and Repair of Flag Officer
       Quarters,” October 27, 1999 (FOUO).

       Naval Audit Service, Audit Report NAVAUDSVC P-7520.1, “Management of
       Family Housing Operations and Maintenance Resources,” December 4, 1998
       (FOUO).

Air Force
       Air Force Audit Agency, Audit Report 99052030, “United States Air Force
       Academy General Officer Quarters,” October 26, 1999.




                                           7
Appendix B. General and Flag Officer
            Quarters Reviewed

                                                                        FY 2000 Maintenance and
                                                                          Repair Expenditures
                  Base                           GFOQ                    Reported to Congress1
    Fort McPherson                      5                                            $ 19,800
                                        10                                             22,700
                                        11E                                            23,800
                                        11W                                            11,100
                                        12W                                          229,600
                                        15E                                             9,600
                                        17W                                            23,900
                                        18                                             21,900
                                        19E                                             3,400

    Fort Shafter                        4 Palm Circle                                 132,800
                                        5 Palm Circle                                  18,900
                                        225 General Loop2                              11,100




1
    All projects over $25,000 must have prior congressional approval.
2
    225 General Loop is located at Schofield Barracks, Hawaii, but is managed by the housing office at Fort
    Shafter.


                                                       8
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commanding General, U.S. Army Forces Command
Commanding General, U.S. Army Pacific

Department of the Navy
Naval Inspector General

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform

                                           9
Department of the Army
Comments




                          Redirected
                          and
                          renumbered
                          as Recom-
                          mendation 2




                     11
Official
signed
comments
from the
command
(Tab B) have
not been
received




               12
     Redirected
     and
     renumbered
     as Recom-
     mendation 2




13
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Garold E. Stephenson
Wayne K. Million
Stephen T. Hampton
Kevin T. O’Connor
David L. Spargo
Wei K. Wu
Lynne M. Thomas
Gary A. Clark
Paul M. Gach
